No. 20-366
IN THE

Supreme £ourt of the Initeb States
DONALD J. 'TRUMP,
PRESIDENT OF THE UNITED STATES, ET AL.,

Appellants,
V.

NEW YORK, ET AL.,

Appellees.

On Appeal from the United States District Court
for the Southern District of New York

CERTIFICATE OF SERVICE
I, D. Hunter Smith, a member of the Bar of this Court, certify that on this 16th
day of November, 2020, I caused to be served by U.S. Mail three copies of the Brief of
Andrew Reamer, Ph.D., as Amicus Curiae in Support of Appellees on each of the
following counsel:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Appellants Donald J. Trump, President of the United States, et al.
Dale E. Ho
Director, Voting Rights Project
American Civil Liberties Union
125 Broad Street
New York, NY 10004
212-549-2693
dale.ho@aclu.org
Counsel for Appellees New York Immigration Coalition, et al.

Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
212-416-8016
Barbara.Underwood@ag.ny.gov
Counsel for Appellees New York, et al.

I further certify that all parties required to be served have been served.

D. Hunter Smith

